           Office Of Inspector General




December 5, 2003

DANNY C. JACKSON
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

WILLIAM P. GALLIGAN
ACTING VICE PRESIDENT, DELIVERY AND RETAIL

SUBJECT: Audit Report – Vehicle Maintenance Facilities – Chicago District –
         Accidental Vehicle Damage Cost and Vehicle Safety, Security, and
         Appearance (Report Number NL-AR-04-002)

This report is one in a series of reports that presents the interim results from our
self-initiated audit of vehicle maintenance facilities (Project Number 02YG012TD001).
The objective of our audit was to determine whether vehicle maintenance facility
operations were effective. This report focuses on whether the Chicago District complied
with Postal Service fleet management policies regarding accidental damage, as well as
vehicle safety, security, and appearance.

We concluded the Chicago District did not always comply with Postal Service fleet
management policies regarding accidental damage, as well as vehicle safety, security,
and appearance. To illustrate, during the 24-month period from February 24, 2001,
through February 21, 2003, the Chicago District incurred approximately $900,000 in
preventable or unnecessary repair costs because personnel conducting Postal Service
business accidentally damaged vehicles—or because officials did not pursue restitution
from private parties who caused damage to Postal Service vehicles. We also
concluded the district could save up to $1.2 million over the next 2 years if accidental
damage is prevented, or damage claims are properly pursued. Further, we concluded
that many Chicago District vehicles were unsafe; did not securely protect the mail; and
their appearance reflected poorly on the Postal Service. These conditions existed
because managers did not enforce compliance with fleet management policies. We
recommended management officials pursue damage claims; inspect and repair
deficiencies; and reinforce vehicle damage claim, safety, and maintenance policies and
procedures.

Management agreed with all of our recommendations. The actions management has
taken or planned should correct the issues we identified in our report. Management
agreed that our recommendations would lead to significant cost reductions. However,
they disagreed with our specific estimate of potential cost savings. We addressed
management’s disagreement with our savings estimate in our evaluation of

   1735 N Lynn St
   Arlington, VA 22209-2020
   (703) 248-2100
   Fax: (703) 248-2256
management’s comments. Management’s comments and our evaluation of these
comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 through
3 significant and, therefore, requires OIG concurrence before closure. Consequently,
the OIG requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information, please contact Joe Oliva
director, Network Operations - Logistics, at (703) 248-2100, or me at (703) 248-2300.



Mary W. Demory
Deputy Assistant Inspector General
 for Operations and Human Capital

Attachment

cc: John A. Rapp
    Michael F. Spates
    Susan M. Duchek
Vehicle Maintenance Facilities – Chicago District –                                          NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance


                                         INTRODUCTION
Background                      The Postal Service has more than 326 vehicle maintenance
                                facilities nationwide. These facilities manage a fleet of more
                                than 208,000 vehicles with a value exceeding $3.3 billion.
                                Over 2,700 vehicles with a value exceeding $42 million are
                                assigned to the Chicago District.




                                     Western Auxiliary Vehicle Maintenance Facility, Chicago, Illinois.



Objective, Scope, and           The objective of our audit was to determine whether vehicle
Methodology                     maintenance facility operations were effective. This report
                                focuses on whether the Chicago District complied with
                                Postal Service fleet management policies regarding
                                accidental damage, as well as vehicle safety, security, and
                                appearance.

                                During our audit, we interviewed various Postal Service
                                officials; analyzed relevant policies and procedures;
                                judgmentally selected Chicago vehicle maintenance
                                facilities and post offices for on-site vehicle inspections;
                                examined vehicle maintenance and repair records for all
                                2,700 vehicles; and photographed vehicles and operations.
                                This audit was conducted from October 2002 through
                                December 2003, in accordance with generally accepted
                                auditing standards, and included such tests of internal
                                controls as were considered necessary under the
                                circumstances. Because internal control requirements like
                                documentation and record retention were not adequate, our
                                work was constrained, and we were not able to more
                                precisely analyze the cost of damage. We discussed our
                                conclusions and observations with appropriate management
                                officials, and included their comments, where appropriate.


                                                      1
Vehicle Maintenance Facilities – Chicago District –                                      NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance



                                We relied on computer-processed data from the Vehicle
                                Management Accounting System to identify repair costs.
                                We did not establish the data’s reliability. In our opinion,
                                use of this data did not adversely affect the audit results.

Prior Audit Coverage            Our report, Safety and Security of the Postal Service
                                Leased Trailer Fleet (TR-AR-01-002, dated March 30,
                                2001), projected that 25 percent of trailers--or almost
                                2,200 of the population of 8,715 trailers--did not meet
                                minimum federal safety standards, including such
                                deficiencies as bald tires, damaged or missing lights,
                                reflectors, mud flaps, doors, load restraint systems,




                                       Trailer Damage at Mail Transport Equipment Service Center.


                                and bumpers. We also found that 1,515 trailers--or more
                                than 68 percent of the trailers we projected as failing
                                safety standards--did not have current safety inspections.
                                In addition, many had missing or incomplete inspection,
                                repair, and maintenance records. We made
                                three recommendations to management to address
                                the safety issues we identified in our report. Management
                                agreed with all of our recommendations and is taking action
                                to address the issues we identified. For additional prior
                                audit coverage, see Appendix A.




                                                      2
Vehicle Maintenance Facilities – Chicago District –                                   NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance


                                        AUDIT RESULTS
Vehicle Accidents,              The Chicago District did not always comply with Postal
Safety, Security, and           Service fleet management policies regarding accidental
Appearance                      damage, as well as vehicle safety, security, and
                                appearance. To illustrate:

                                •    During the 24-month period from February 24, 2001,
                                     through February 21, 2003, the Chicago District incurred
                                     approximately $900,000 in preventable or unnecessary
                                     costs because personnel conducting Postal Service
                                     business accidentally damaged vehicles or because
                                     officials did not pursue restitution from private parties
                                     who caused damage. The Chicago District could save
                                     up to $1.2 million over the next 2 years if accidental
                                     damage is prevented, or if damage claims are properly
                                     pursued. For an explanation of monetary impact, see
                                     Appendix C.



                                             Accident Damage




             South Chicago Post Office.                        Roberto Clemente Post Office.

                                •    Many Chicago District vehicles were unsafe, did not
                                     securely protect the mail, and their appearance reflected
                                     poorly on the Postal Service.




                                                      3
Vehicle Maintenance Facilities – Chicago District –                                NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance



              Missing Tail Light Lenses                            Flaking Paint




           Mount Greenwood Post Office.                        Roseland Post Office.


Accidental Damage               Postal Service Handbook PO-701, Fleet Management,
                                dated March 1991, requires drivers to operate vehicles
                                safely, and prevent damage. The handbook also requires
                                officials to reduce accidental cost by taking and
                                documenting accident prevention measures like driver
                                training, observation, testing, counseling, and suspension.
                                The handbook suggests vehicle accidents are preventable,
                                but are caused by negligent personnel conducting Postal
                                Service business, or negligent private parties. It requires
                                Postal Service officials to investigate all accidents,
                                determine fault, and when private parties damage Postal
                                Service vehicles, pursue claims for restitution.

                                Our examination revealed the Chicago District did not
                                comply with Postal Service accident prevention,
                                investigation, or damage claim policy. Specifically, our
                                review of maintenance records for all 2,700 vehicles
                                assigned to the Chicago District, disclosed that during the
                                period February 24, 2001, through February 21, 2003, the
                                district incurred accidental damage costs of approximately
                                $900,000. However, we found that district personnel neither
                                completed nor retained accident documentation. As a
                                result, we could not determine whether officials pursued
                                required accident prevention measures like driver training,
                                observation, counseling, or license suspension; investigated
                                accidents; or pursued damage claims against private parties
                                who damaged Postal Service vehicles. This occurred
                                because managers did not enforce compliance with fleet
                                management policies regarding accident damage. Instead,
                                the district simply paid accident repair costs that could have



                                                      4
    Vehicle Maintenance Facilities – Chicago District –                                           NL-AR-04-002
     Accidental Vehicle Damage Cost and Vehicle
     Safety, Security, and Appearance

                                    been prevented or recovered. Correcting these deficiencies
                                    could save the Chicago District up to $1.2 million over the
                                    next 2 years.1




                                                                                        Body Damage




                                                              Roberto Clemente Post Office.


    Vehicle Safety,                 Handbook PO-701 requires drivers and managers to
    Security, and                   properly maintain vehicles so they are safe, securely protect
    Appearance                      the mail, and present an appropriate appearance.

                                    Our examination revealed the Chicago District did not
                                    comply with Postal Service fleet management policies
                                    regarding vehicle safety, security, and appearance.
                                    Specifically, during our on-site inspection of vehicles at
                                    eight judgmentally selected post offices during
                                    October 2002 and February 2003, we identified 460 safety,
                                    security, or appearance deficiencies on 265 vehicles.
                                    Specifically, we identified broken or missing lights and
                                    mirrors; missing or significantly damaged bumpers; worn
                                    tires; broken hood and door latches; broken or missing
                                    windows; body damage; peeling paint and Postal Service
                                    logos; and graffiti.




1
 Our analysis of approximately $900,000 in unnecessary accident costs identified an average cost of $46,162 per
accounting period, projecting potential savings of up to $1.2 million over 2 years. See Appendix C.



                                                          5
Vehicle Maintenance Facilities – Chicago District –                                     NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance



        Bumper Strapped On with Bungee Cord




                                                                   Bumper Secured with Tape


          Mount Greenwood Post Office.                          Mount Greenwood Post Office.


                                In February 2003, we reinspected 89 judgmentally selected
                                vehicles of the damaged vehicles we found in October and
                                found that 86 of the 89 vehicles previously inspected still
                                had the deficiencies originally identified. A more detailed
                                summary of our inspection is provided in Appendix B.




                                  Broken, Missing, and Rusted Mirrors




               Roseland Post Office.                              Auburn Park Post Office.


                                These unsatisfactory conditions existed because
                                management did not enforce compliance with vehicle
                                safety, security, and appearance requirements specified by
                                Handbook PO-701. For example, vehicle maintenance
                                facility personnel explained that drivers and supervisors did
                                not conduct required daily vehicle inspections.
                                Consequently, required repairs were not identified or
                                completed until routine regularly scheduled maintenance
                                was performed.


                                                      6
Vehicle Maintenance Facilities – Chicago District –                                         NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance




                                                      Delivery Vehicle’s Rusty and Broken
                                                           Latch “Secured” with Rope


                                                          South Chicago Post Office.


                                Because these deficiencies were not immediately reported,
                                vehicles in the Chicago District were not properly
                                maintained or repaired; were unsafe; presented a threat to
                                Postal Service personnel and the public; did not properly
                                protect the mail; were in deteriorated condition; and
                                reflected poorly on the Postal Service. In addition, officials
                                could not take appropriate actions, such as providing
                                additional driver training, to help prevent damage to
                                vehicles.

Recommendations                 We recommend the vice president, Great Lakes Area
                                Operations:

                                1. Direct Chicago vehicle managers to immediately file all
                                   appropriate damage claims, inspect its fleet of vehicles,
                                   and immediately repair all deficiencies and damage.

Management’s                    Management agreed with our recommendation. They
Comments                        stated they will direct the Chicago District to file all
                                appropriate damage claims and that the Chicago vehicle
                                maintenance facility is currently addressing the issues of
                                fleet appearance and safety. Management also stated that
                                a vehicle deficiency report will be developed for each Postal




                                                      7
Vehicle Maintenance Facilities – Chicago District –                               NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance



                                Service station, which lists deficiencies in the area of safety,
                                operational and unreported accident damage, and the list
                                will be acted upon expeditiously. Management’s comments,
                                in their entirety, are included in Appendix D of this report.

Evaluation of                   Management’s comments were responsive to our
Management’s                    recommendation. We believe the actions management has
comments                        taken or planned are sufficient to address the issues we
                                identified in the report.

Recommendation                  We recommend the vice president, Great Lakes Area
                                Operations:

                                2. Reinforce, through means such as additional training
                                   and written guidance, the vehicle damage claim, safety,
                                   security, and maintenance provisions contained in Postal
                                   Service Handbook PO-701, Fleet Maintenance, dated
                                   March 1991.

Management’s                    Management agreed with our recommendation. They
Comments                        stated vehicle maintenance mechanics and technicians
                                were being retrained or were scheduled for training with
                                procedures contained in Handbook PO-701, Fleet
                                Maintenance, and in the Vehicle Maintenance Bulletin,
                                V-07-98, dated June 1, 1998. Management also stated that
                                tort claim training was being requested; that a national
                                review team had been asked to perform a follow-up review
                                of the vehicle maintenance facility in the Chicago District;
                                and that an action plan addressing the audit
                                recommendations was put into effect immediately.

Evaluation of                   Management’s comments were responsive to our
Management’s                    recommendation. We believe the actions management has
comments                        taken or planned are sufficient to address the issues we
                                identified in the report.

Recommendation                  We recommend the acting vice president, Delivery and
                                Retail:

                                3. Review and reinforce policies, training programs, and
                                   other guidance necessary to cause Postal Service
                                   officials, managers, and employees to appropriately
                                   pursue damage claims from negligent third parties who



                                                      8
Vehicle Maintenance Facilities – Chicago District –                                 NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance

                                     damage Postal Service vehicles-and to maintain
                                     vehicles that are safe, protect the mail, and reflect
                                     positively on the Postal Service.

Management’s                    Management agreed with our recommendation. They
Comments                        stated that Delivery and Retail would work with the
                                Managing Counsel to revise Handbook PO-701, Fleet
                                Maintenance, and Handbook PO-702, Accident
                                Investigations—Tort Claims, and they expected to publish
                                the recommendations before January 2004. Management
                                also stated that to build continuous improvement in vehicle
                                maintenance operations, a national model vehicle
                                maintenance facility review team was formed and the
                                Chicago vehicle maintenance facility was audited. In
                                addition, management stated the headquarters Safety
                                Performance Management group was taking separate
                                follow-up action with the Great Lakes Area to determine
                                appropriate improvements to the Chicago District’s safety
                                and accident reporting program, and that Delivery and
                                Retail would assist the area with follow-up action as
                                necessary.

Evaluation of                   Management’s comments were responsive to our
Management’s                    recommendation. We believe the actions management has
Comments                        taken or planned are sufficient to address the issues we
                                identified in the report.

Additional                      Management agreed that our recommendations would lead
Management’s                    to significant cost reductions. However, they disagreed with
Comments                        our specific estimate of potential cost savings.

Evaluation of                   In our report, we specified that management controls like
Management’s                    documentation and record retention were not adequate; the
Additional Comments             adequacy of the records constrained our work; and as a
                                result, we were unable to more precisely analyze cost. Had
                                required management records been more complete, our
                                estimates could have been more precise. However,
                                throughout our audit we consulted with subject matter
                                experts who routinely guided our work. In consultation with
                                our subject matter experts, we concluded the most objective
                                measure to communicate the magnitude of the issues we
                                raised, was to identify all damage costs and qualify those
                                costs as an upper limit or potential. In that context, we
                                consider our estimates appropriate.



                                                      9
 Vehicle Maintenance Facilities – Chicago District –                          NL-AR-04-002
  Accidental Vehicle Damage Cost and Vehicle
  Safety, Security, and Appearance


                      APPENDIX A. PRIOR AUDIT COVERAGE
Our report, Leased Trailer Deficiencies in the New York Metro Area (TR-MA-01-001,
dated March 30, 2001), identified deficiencies we found while visiting the New York
Metro Area to inspect the statistically selected trailers included in the audit referred to
on page 2. The trailers we observed were not within our randomly selected statistical
sample. However, because the trailers appeared to be old and in substandard
condition, we conducted a limited inquiry. In response to our inquiry, the contractor was
unable to provide maintenance history files or safety compliance records as required by
the contract. Our advisory suggested that management require the contractor to meet
contract provisions regarding safety, maintenance, and appearance; and that if the
provisions were not met, consider contract cancellation. Management agreed with all of
our suggestions.

Our report, Trailer Damage (TD-MA-02-002, dated March 22, 2002), revealed the Postal
Service had an opportunity to save up to $1 million annually by reducing unnecessary
damage to trailer doors. Specifically, we found trailer door damage was a significant
avoidable cost, caused primarily by cargo that was not properly loaded or secured, and
as a result, shifted in transit and caused damage. We also concluded the unnecessary
damage was caused, at least in part, because Postal Service personnel did not comply
with safety provisions specified by Postal Service Handbook PO-701, Fleet
Maintenance, dated March 1991, or with other Postal Service policies and procedures.
We made two recommendations to management to address the issues we identified
and management agreed with both our recommendations. Management is
implementing the actions to correct the deficiencies.

Our report, New York Metro Area Trailer Acquisition – Safety and Length
(TD-AR-03-001, dated October 28, 2002), concluded, in part, the existing New York
Metro Area 40-foot trailer fleet did not meet federal or contract safety standards,
including such deficiencies as rusted or damaged frames, bald tires, and expired safety
stickers. We recommended that contracting officers enforce federal and lease safety
and maintenance requirements. Management agreed with our recommendation.
Management is implementing actions to correct the deficiencies.




                                                       10
      Vehicle Maintenance Facilities – Chicago District –                                            NL-AR-04-002
       Accidental Vehicle Damage Cost and Vehicle
       Safety, Security, and Appearance


                                APPENDIX B
             ANALYSIS OF CHICAGO DISTRICT VEHICLE INSPECTIONS
                      VEHICLE DEFICIENCIES IDENTIFIED2

                                                                                Number of Deficiencies
                                                                          Owned    Leased
Deficiency Type                                                          Vehicles Vehicles       Total

Broken or Missing Mirrors                                                    126              7                133

Broken or Missing Lights
      Signals                                                                   3             0                  3
      Headlights                                                                2             3                  5
      Tail Lights                                                               6            18                 24

Missing or Significantly Damaged Bumpers                                      31             31                 62

Worn or Low Tires                                                               6             1                  7

Broken Hood Latches                                                           14              1                 15

Broken or Missing Windows                                                     13              2                 15

Broken Door Latches                                                             2             3                  5

Moderate to Severe Body Damage                                                72             62                134

Peeling Postal Service Logos                                                  34              0                 34

Peeling Paint                                                                 13              0                 13

Graffiti                                                                      10              0                 10


  Total Deficiencies                                                         332            128                460


Number of Post Offices Visited                                                                                   8
Number of Vehicles with Exceptions                                           193             72                265
Number of Vehicles Assigned to the Offices Visited                           305             95                400


  2
   The offices visited were not selected in accordance with probability sampling procedures; therefore, these results
  should not be assumed to be representative of the universe of vehicles or offices because such assumptions cannot
  be made with a known degree of reliability.



                                                            11
    Vehicle Maintenance Facilities – Chicago District –                                           NL-AR-04-002
     Accidental Vehicle Damage Cost and Vehicle
     Safety, Security, and Appearance



                           APPENDIX C
           SUMMARY OF MONETARY IMPACT FOR VEHICLE REPAIR

Chicago District vehicle repair costs/claims for damaged vehicles:

           Owned vehicle repair costs                                                            $444,5373
            Accounting period 7, 2001 through accounting period 6, 2003
             (February 24, 2001, through February 21, 2003)

           Leased vehicle repair claims                                                          432,9354
            Not available by accounting period
            (January 1, 2002, through February 21, 2003)                                         _______

                   Total (owned and leased)                                                      $877,472*


Average Chicago District repair costs/claims per accounting period for damaged
vehicles:

           Owned vehicle repair costs                                                            $17,098
            ($444,537/26 accounting periods)

           Leased vehicles repair claims                                                          29,064
             ($432,935/417 days in period reviewed
               = $1038/day x 28 days in an accounting period)                                    _______

                   Total (owned and leased)                                                      $46,162


Estimated Chicago District repair costs/claims
for owned and leased vehicles for 2 years:                                                   $1,200,212**
  ($46,162 per accounting period x 26 accounting periods)


 * Represents unrecoverable costs
** Represents funds put to better use

3
    Actual costs recorded in the Vehicle Management Accounting System.
4
 Actual claims submitted to the Chicago District for leased vehicle damages. Claim costs provided by Chicago
District personnel. Data was not available prior to January 2002.




                                                          12
Vehicle Maintenance Facilities – Chicago District –        NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance


                   APPENDIX D. MANAGEMENT’S COMMENTS




                                                      13
Vehicle Maintenance Facilities – Chicago District –        NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance




                                                      14
Vehicle Maintenance Facilities – Chicago District –        NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance




                                                      15
Vehicle Maintenance Facilities – Chicago District –        NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance




                                                      16
Vehicle Maintenance Facilities – Chicago District –        NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance




                                                      17
Vehicle Maintenance Facilities – Chicago District –        NL-AR-04-002
 Accidental Vehicle Damage Cost and Vehicle
 Safety, Security, and Appearance




                                                      18
